September 27, 2010

MAURA ROBINSON
VICE PRESIDENT, PRICING

MARIE T. DOMINGUEZ
VICE PRESIDENT, GOVERNMENT RELATIONS AND PUBLIC POLICY

SUBJECT:          Audit Report – Impact of Postal Accountability and Enhancement Act Price
                  Caps (Report Number CRR-AR-10-005)

This report presents the results of our audit of the impact of the Postal Accountability
and Enhancement Act’s (Postal Act of 2006 or “the Act”) price caps on U.S. Postal
Service rates (Project 10RG006CRR000). Our objective was to evaluate the impact of
the Postal Act of 2006’s mandated price caps on Postal Service rates. The Act requires
the U.S. Postal Service Office of Inspector General (OIG) to audit the data collection
systems and procedures the Postal Service uses in their rate-making process. This
audit was self-initiated and addresses both financial and operational risks. Please refer
to Appendix A for additional information about this audit.

The Postal Act of 2006 fundamentally changed the Postal Service’s rate-setting process
and divided Postal Service products into two categories: market-dominant and
competitive. The market-dominant category includes classes of mail such as First-
Class™ and Standard, for which the Postal Service holds a monopoly. Priority Mail®
and Express Mail® are examples of classes of mail in the competitive products
category, which compete with products competitors in the private sector offer.

The Act established a price cap on postage rates for market-dominant products. The
price cap is limited to the increase in inflation for the most recent 12-month period.1 The
price cap applies to classes of mail rather than to the market-dominant category as a
whole. Additionally, the Act allows the Postal Service to bank any unused portions of
rate increases for up to 5 years.2



1
  The Postal Act of 2006 requires the Postal Service to use the Consumer Price Index for Urban (CPI-U) Consumers
as a measure of inflation.
2
  For example, if the CPI-U is 2.5 percent for 1 year and the Postal Service raises rates for that class of mail by 1.5
percent, the unused 1 percent could be used to raise rates within the next 5 years. However, the rate increases,
including prior years’ unused rates increases, may not exceed the CPI-U by more than 2 percent.
Impact of Postal Accountability and Enhancement                                                    CRR-AR-10-005
 Act Price Caps


The Act also requires the Postal Service to cover the costs for each class of mail or type
of mail service and for market-dominant and competitive products to contribute towards
covering the general overhead costs of the Postal Service. The Act requires the Postal
Service to assure it collects adequate revenue to maintain long-term financial stability.

Mail volume peaked at 213 billion pieces in fiscal year (FY) 2006. Since then, mail
volume has declined each year3 and much of the current Postal Service network is
underutilized. The network has about 36,000 post offices, 600 processing facilities, and
600,000 career employees. Even with aggressive cost-containment efforts, mail volume
declines spread the Postal Service’s costs over a smaller mail volume base, resulting in
more products that are unable to cover their costs.

The Act allows the Postal Service to request an exigent rate increase for extraordinary
and exceptional circumstances. However, neither the Act nor Postal Regulatory
Commission (PRC) rules contain detailed criteria or guidelines that qualify as exigent
circumstances. On July 6, 2010, the Postal Service filed for an exigent rate increase for
market-dominant products. The proposed adjustment includes the available CPI-U cap,
the unused rate authority for each mail class or type of service and an exigent
adjustment. The PRC has 90 days to determine whether the adjustment is reasonable,
equitable, and necessary.

Conclusion

The Postal Act of 2006 expedited the rate-making process and introduced price
predictability; however, it impacts the Postal Service’s ability to appropriately cover
costs within certain mail classes and provide sufficient profit margins to cover overhead
costs.4 For example, while the Act provided the Postal Service additional flexibility in
managing its product line, certain objectives, factors, and requirements of the Act are
contradictory and present a compliance challenge for the Postal Service. One mandate
requires each class of mail to cover its cost, while another mandate limits rate increases
to the change in inflation, which was negative in FY 2009. Therefore, when inflation is
low and mail volumes are declining, the price cap does not allow the Postal Service to
raise prices to a level that appropriately covers costs.

Specifically, seven domestic market-dominant products and services5 did not cover their
costs or contribute to covering overhead costs in FY 2009. Revenue loss resulting from
these seven products could total approximately $1.5 billion in FY 2010. Had
management used all its available banked rate authority in FY 2009, the Postal Service
could have captured approximately $1.75 million of the $1.5 billion revenue shortfall.
See Appendix C for additional details.

3
  Mail volume totaled 177 billion pieces in FY 2009 and is forecast to drop an additional 15 percent by 2020, to a level
of 150 billion pieces.
4
  In FY 2009, the total general overhead costs for the Postal Service was $28,906.8 million.
5
  There were 14 products and services that failed to cover costs. This report did not include special services or
international products, and therefore, focused on the remaining seven products and services.




                                                           2
Impact of Postal Accountability and Enhancement                                                    CRR-AR-10-005
 Act Price Caps



Allowing the Postal Service to apply the price cap to a larger base, such as the market-
dominant level instead of each mail class, would give additional flexibility for the Postal
Service to cover the cost of its products and services. If the increase in inflation in
FY 2008 was applied to the market-dominant category as a whole for the FY 2009 price
increase, the Postal Service could have generated additional revenue of approximately
$424 million. The $1.5 billion revenue loss for the seven products and the $424 million
from the application of the inflation rate at the market-dominant level represents
approximately $2 billion in unrecoverable revenue loss6 for the Postal Service. See
Appendix B and Appendix D for additional details.

In summary, the effects of the price cap under the Act have been exacerbated by
unprecedented declines in mail volume, and excess network capacity. Legislative
reform allowing more flexibility in applying the price cap to a larger base, such as at the
market-dominant level versus the mail class level, would assist the Postal Service in
developing a long-range plan to comply with legislative mandates.

Cost Coverage and Pricing Flexibility

Cost Coverage Compliance

The price cap has negatively impacted the Postal Service’s ability to price its market-
dominant products and services to generate sufficient revenue to cover product costs
and contribute to the coverage of overhead costs. Despite aggressive cost-cutting
measures, the Postal Service did not cover product costs in FY 2009 for seven
domestic products and services within the Standard, Periodicals, and Packages mail
classes.7 Accordingly, these seven domestic products did not contribute to the coverage
of overhead costs. See Table 1.




6
  Unrecoverable revenue loss is revenue that should have been collected or recognized for goods delivered or
services rendered, but was not collected or not recognized due to the passage of time or other circumstances.
7
  Package Services and Periodicals did not cover their costs at the mail class level while Standard Mail did cover its
costs at the class level. However, as shown in table 1 there were 7 significant sub-classes that did not attain the
required cost coverage.




                                                           3
Impact of Postal Accountability and Enhancement                                             CRR-AR-10-005
 Act Price Caps


                     Table 1. Cost Coverage for Selected Mail Products

                                                     Percentage of Cost Coverage
    Market-dominant Mail
    Classes                            FY 2006             FY 2007      FY 2008         FY 2009
    Standard Mail®:
     Flats                          Not Available8    Not Available       94.16           82.15
     Non Flat-Machinables and       Not Available     Not Available       79.59           75.23
     Parcels
    Periodicals:
     In County                           90.9               83.91         94.47           86.26
     Outside County                      89.2               82.21         82.94           75.03
    Package Services
     Single-Piece Parcel Post          106.33           103.22            91.60           91.85
     Bound Printed Matter            Not Available    Not Available      107.71           97.70
     Parcels
     Media and Library Mail              90.54              91.24         87.49           84.13

The price cap model can function as intended only if mail volume is steady or increasing
and costs increase by no more than the rate of inflation. When mail volume decreases,
the lost revenue must be offset by cost reductions; however, the Postal Service has not
been able to reduce costs fast enough to offset the effects of the unprecedented
declines in mail volume and revenue. The decline in mail volume from FY 2008 levels
prevented Bound Printed Matter Parcels, which covered its costs in 2008, from covering
its costs in FY 2009. Specifically, in FY 2008 Bound Printed Matter Parcels was able to
cover its costs when it had a volume of 308 million pieces. The volume decrease
contributed to the decline in cost coverage from FYs 2008 to 2009 for five of the other
six products. Only Single-Piece Parcel Post mail showed a slight increase in cost
coverage, but still it did not cover its overall costs.

In 2009, the average hourly labor costs increased by 6.2 percent. In FY 2009, the Postal
Service reduced compensation costs by $1.4 billion by eliminating 115 million
workhours. However, this was offset by a $1.1 billion increase due to the increase in
average hourly labor costs. Since inflation was negative in FY 2009, it was not possible
to increase rates within the price cap provision without using the banked portion of
unused prior rate increases. Further, due to the economic downturn the Postal Service
elected not to proceed with a rate increase for market-dominant products because they
believed this would drive volume down even more. If rates are not increased to cover
costs for these seven products alone, the Postal Service will lose approximately
$1.5 billion in revenue for FY 2010.

Postal Service revenue must cover both product costs and overhead costs to break
even. However, market-dominant products have a greater burden for contributing to the
Postal Service’s overhead expenses because 88 percent of the Postal Service’s
revenue is derived from those products. Therefore, it becomes even more critical for
8
 The sub-classes for Standard Mail Flats, Non-Flat Machinables and Parcels, and Package Services Bound Printed
Matter Parcels did not exist in 2006 and 2007.




                                                       4
Impact of Postal Accountability and Enhancement                                                   CRR-AR-10-005
 Act Price Caps


these products to not only cover product costs, but also to generate sufficient revenue
to contribute to overhead costs.

The exigent rate increase filed by the Postal Service on July 6, 2010, for implementation
on January 2, 2011, provides for an aggregate increase of approximately 5.6 percent for
all market-dominant products. The Postal Service expects that four of the seven
domestic products9 would remain below 100 percent cost coverage after
implementation of the proposed adjustments.

Unused Rate Authority

Management used most, but not all of its available unused rate authority in FY 2009 to
raise rates in FY 2010, stating the long-term effect of increasing rates could drive
additional mail volume out of the system. The Act allows the Postal Service to use its
unused rate authority to assist in maintaining financial stability. If the Postal Service had
applied all of its available unused rate authority in FY 2009 to the applicable classes of
mail, it would have generated approximately $1.75 million in additional revenue.

The total price adjustments for each mail class or type of service in the exigent rate
increase proposal include the available CPI-U cap of 0.578 percent,10 plus all of the
unused rate authority for each mail class or type of service, and an exigent adjustment.

Price Cap Flexibility

The Act requires the price cap to be applied to narrow bases of individual mail classes
within the market-dominant category, rather than to market-dominant products as a
whole. This limits the Postal Service’s flexibility to rebalance rate increases across all
market-dominant products and adjust for the price elasticity11 of the various classes of
mail.

Management must decide how best to apply a rate change for each mail product
without exceeding the price cap average for the mail class. For example, in FY 2009,
management decreased the rates for Bound Printed Matter Flats by 2 percent to
compensate for above average increases for other within class products. Applying the
price cap across a larger baseline, such as at the market-dominant level, would have
provided more options and may have mitigated the need for a decrease in pricing for
this product.

The Postal Service has developed a long-range strategic plan12 which recognized the
need to ensure that prices of market-dominant products are based on the demand for

9
  Standard Mail Flats, In County Periodicals, Outside County Periodicals, and Media and Library Mail.
10
   As of May 2010.
11
   Price elasticity refers to the impact on demand of a product given price increases or decreases. In general as the
price of mail increases the volume will decrease.
12
   Ensuring a Viable Postal Service for America: An Action Plan for the Future, March 2010.




                                                           5
Impact of Postal Accountability and Enhancement                             CRR-AR-10-005
 Act Price Caps


each individual product and its costs, rather than capping prices for each class at the
rate of inflation. However, implementation of the plan would require legislative changes
and it does not address or provide milestones for covering costs for those mail classes
which currently do not cover their costs. The Postal Service also issued a Flats Strategy
on July 6, 2010, that describes strategies and general timeframes for improvements in
transportation, mail processing, and Post Office operations and delivery.

Allowing the Postal Service to apply the price cap to a larger base, such as the market-
dominant level instead of each mail class, would give additional flexibility for the Postal
Service to cover the cost of its products and services. If the increase in inflation in
FY 2008 was applied to the market-dominant category as a whole for the FY 2009 price
increase, the Postal Service could have generated additional revenue of approximately
$424 million.

Obtaining legislative relief on additional pricing options and developing a detailed plan
to comply with the legislative mandate to cover costs for all market-dominant products
would assist mailers in their strategic planning and improve the financial stability of the
Postal Service.

We recommend the vice president, Pricing, coordinate with the vice president,
Government Relations and Public Policy, to:

1. Seek legislative reform to aid with rebalancing when capping prices at the inflation
   rate conflicts with the requirement to cover costs.

2. Develop a detailed transparent plan, with established milestones, for each individual
   product to move towards coverage of their costs and a contribution to overhead
   costs.

Management’s Comments

Management did not address concurrence with the finding but agreed with
recommendation 1 and partially disagreed with recommendation 2. Management
agreed that, as a matter of good business practice, all products should cover their
attributable costs. Management suggested that the exigent price change request, if
approved, could result in all but four domestic market-dominant products covering their
attributable costs and that significant progress could be made in cost coverage for those
remaining four products.

With regard to recommendation 1, management stated they submitted proposed
legislative language in May 2010 to congressional oversight committees that would
move the price cap from the individual product level to the market-dominant basket as a
whole. Management stated this would provide the Postal Service with additional
flexibility to address situations where the price cap does not permit the Postal Service to
increase prices sufficiently to allow products to cover their costs. Management also




                                                  6
Impact of Postal Accountability and Enhancement                                CRR-AR-10-005
 Act Price Caps


stated they would continue to educate members of Congress on the value of this
proposal.

With regard to recommendation 2, management disagreed with the recommendation to
the extent that establishment of a detailed, transparent plan with established milestones
would prevent the Board of Governors from fulfilling their statutory duty to balance all
relevant considerations in establishing prices. Management also stated that compliance
with the recommendation could potentially eliminate pricing flexibility, which is a
hallmark of the Postal Act of 2006.

Management stated that pricing decisions are the purview of the Board of Governors,
who balance statutory and regulatory requirements with market conditions and business
strategies when establishing prices. Management stated that the recommendation
elevates the cost coverage requirement above all other factors and objectives in a way
the statute did not contemplate. Management added that the Board of Governors must
consider all elements of the statute and balance them when reaching a pricing decision
and cannot focus solely on one factor to the exclusion of all other statutory
considerations.

Management also stated the conclusion that a $1.6 billion “revenue shortfall” could have
been captured is incorrect. Management stated that increasing the prices for all
non-compensatory prices to fully cover product costs would require reduction of other
product prices. Management stated this would reduce revenue by an offsetting amount.

Finally, management stated that the OIG analysis evaluates the effect of a price change
for a single fiscal year and does not incorporate the longer term effects of targeted
pricing. Management stated that the OIG analysis does not correct for changes in
weight per piece between FYs 2008 and 2009 and, therefore, overstates the potential
additional revenue resulting from applying the price cap to the market-dominant
products as a whole rather than each individual mail class in any price change. See
Appendix E for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments to recommendation 1 to be responsive.
Management took corrective action to convey a legislative change request to the
oversight committees to raise the threshold for application of the price cap from
individual mail classes to the market-dominant basket as a whole.

Management’s comments to recommendation 2 are not responsive. The
recommendation to provide a detailed transparent plan with established milestones for
each product to cover costs does not interfere with the Board of Governors ability to
fulfill their statutory duty to balance all relevant considerations in establishing prices, nor
does it eliminate pricing flexibility. Best practices, along with the dire financial position of
the Postal Service, require the agency to provide the Board of Governors with strategies




                                                  7
Impact of Postal Accountability and Enhancement                            CRR-AR-10-005
 Act Price Caps


and options for each product that is not covering costs so they can carry out their
decision-making responsibilities. The plan can be adjusted as necessary as market
conditions and circumstances evolve. Further, when products do not cover their costs,
other products must provide a greater contribution toward the costs of the Postal
Service, which may cause inequities among customers. Accordingly, we plan to elevate
this issue via the audit resolution process.

The need for a detailed transparent plan is further supported by similar requests the
PRC made in the FY 2009 Annual Compliance Determination wherein they directed the
Postal Service to develop a plan explaining how it intends to increase Periodicals cost
coverage to a reasonable level in its next notice of general price adjustments for
market-dominant products and devise a plan to improve the cost coverage of the
Standard Mail Flats product. The plan, to be filed at the time of the next Annual
Compliance Report or the next general market-dominant price adjustment, will outline
how the Postal Service anticipates addressing the revenue shortfalls of the Package
Services class and each of the products that did not produce sufficient revenue to
exceed attributable costs.

We agree that the Postal Service would be unable to capture the $1.5 billion revenue
shortfall in the short term while complying with the price cap provision of the Act and we
specifically classify this as “unrecoverable” revenue loss. This figure represents the
amount of revenue the Postal Service lost as a result of the domestic market dominant
products which did not cover their costs, due in part to the Postal Service’s compliance
with the price cap provision of the Act. This also underscores the complexities the
Postal Service faces in complying with the various, sometimes conflicting, provisions of
the Act.

Further, on September 14, 2010, The PRC issued Order 536, Order Adopting Analytical
Principles Regarding Workshare Discount Methodology. While this order focuses on
workshare discount methodology, it also states that the PAEA requires that market
dominant rates observe three pricing standards, one of which is that prices for each
class are capped at the Consumer Price Index. Therefore, we believe, that based on
prior actions of the PRC, as well as statements in Order 536, that it is implied that the
price cap is the dominant requirement for pricing decisions.

We agree with management’s assertion that the changes in weight between FY 2008
and FY 2009 can be a factor in pricing, and they were not included in our methodology.
However, we believe our methodology, which utilized the Postal Service’s elasticity
factors and was coordinated with management several times during the audit, is
adequate to provide an estimate of the revenue impact of applying the price cap at the
market dominant level versus the mail class level.

The OIG considers all the recommendations significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. The management response to recommendation 1 is




                                                  8
Impact of Postal Accountability and Enhancement                         CRR-AR-10-005
 Act Price Caps


sufficient to close that recommendation; recommendation 2 should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, director, Cost,
Revenue, and Rates, or me at 703-248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Stephen M.Kearney
    Joseph D. Moeller
    Scott J. Davis
    Corporate Audit and Response Management




                                                  9
Impact of Postal Accountability and Enhancement                               CRR-AR-10-005
 Act Price Caps


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Act of 2006 provides the regulatory framework for reducing costs and
increasing efficiency, creating rate predictability and stability, maintaining high quality
service standards, and allowing for pricing flexibility. The key objectives were to assure
the Postal Service is collecting adequate revenue and reduce administrative burden in
the rate-making process.

The Act revised the rate-setting procedure and relieved much of the administrative
burden for setting rates. The time currently required to set rates is approximately
3 months. Previously, the process required 18 months: 5 months for preparation,
10 months for litigation, and 3 months for consideration and implementation.

The maximum rate adjustment the Postal Service is authorized to make in any year is
subject to the annual limitation of the rate of inflation. This price cap, which is applied to
each class of mail, is set to equal the change in the CPI-U over the most recent
available 12-month period. The Postal Service is allowed to bank any unused portions
of rate increases for up to 5 years and use it for future rate increases as long as the
unused authority does not exceed the CPI-U by 2 percent.

The Act also allows the Postal Service to request an exigent rate increase for
extraordinary and exceptional circumstances. PRC rules outline the process for filing an
exigent rate increase. The exigency-based rate adjustment is not subject to the inflation-
based limitation or the restrictions on the use of unused rate adjustment authority.

A key requirement of the Act is for each class of mail or type of mail service to cover its
costs. Other key factors require the Postal Service to increase its efficiency and reduce
its costs, help maintain high quality and affordable services, and consider the value of
the kinds of mail matter entered into the postal system and the desirability and
justification for special classifications and services of mail. This includes the value of
educational, cultural, scientific, and informational mail matter for the recipient.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate the impact of the Postal Act of 2006’s mandated price
caps on Postal Service rates. To accomplish our objective, we reviewed available
policies, procedures, and documentation. We interviewed key officials and subject
matter experts in Pricing, Forecasting, and Regulatory Reporting and Cost Analysis at
the Postal Service. We also interviewed key officials at the PRC.

We analyzed Cost and Revenue Analysis reports from 2000 to 2009. We determined
there were two international and 12 domestic market-dominant products and services
that did not cover costs in 2009. However, we focused our review on the seven




                                                  10
 Impact of Postal Accountability and Enhancement                                     CRR-AR-10-005
  Act Price Caps


 domestic products for Standard, Periodicals, and Package Services. We analyzed
 Annual Compliance Reports for 2008 and 2009 and recent models and studies. We
 monitored a blog we posted on pricing and price caps under the Postal Act of 2006.

 We conducted this audit from November 2009 through September 2010, in accordance
 with generally accepted government auditing standards, and included such tests of
 internal controls as we considered necessary under the circumstances. Those
 standards require that we plan and perform the audit to obtain sufficient, appropriate
 evidence to provide a reasonable basis for our findings and conclusions based on our
 audit objective. We used publically available data and data we received from the Postal
 Service for our analysis. We believe that the evidence obtained provides a reasonable
 basis for our findings and conclusions based on our audit objective. We discussed our
 observations and conclusions with management officials on June 30, 2010, and
 included their comments where appropriate.

 PRIOR AUDIT COVERAGE

 As mandated under the Act, the Comptroller General of the U.S. prepared and
 submitted a report evaluating various options and strategies for the long-term
 operational and structural reform of the Postal Service. In July 2009, the Government
 Accountability Office (GAO) added the Postal Service’s financial condition to the list of
 high-risk areas needing attention by Congress and the executive branch to achieve
 broad transformation. The following GAO reports are part of a series that update the
 Postal Service’s financial condition and outlook.

                                        Table 2. GAO Reports
                                           Report        Report
            Report Title                  Number           Date                Report Results
USPS: Progress Made to Implement        GAO-08-1134R    9/25/2008   Major changes affecting the Postal
GAO’s Recommendations to                                            Service include declining mail
strengthen Network Realignment                                      volumes and increasing operating
Planning and Accountability and                                     expense which reinforce need to
Improve Communication                                               increase efficiency in network.
USPS: Escalating Financial              GAO-09-475T     3/25/2009   The Postal Service’s financial
Problems Require Major Cost                                         condition continues to deteriorate,
Reductions to Limit Losses                                          accelerating declines in mail volume
                                                                    and accelerating financial losses.
USPS: Restructuring Urgently            GAO-09-958T     8/6/2009    The Postal Service’s financial
Needed to Achieve Financial Viability                               condition and outlook continue to
                                                                    deteriorate. The Postal Service
                                                                    expects to generate insufficient cash
                                                                    to make mandated payments for
                                                                    retiree health benefits.
USPS: Financial Challenges              GAO-10-191T     11/5/2009   The Postal Service’s financial
Continue, with Relatively Limited                                   condition and outlook continue to be
Results from Recent Revenue-                                        challenging. The Postal Service will
Generation Efforts                                                  reach statutory debt limit by 2011
                                                                    and projects large cash shortfalls.




                                                   11
Impact of Postal Accountability and Enhancement                                                   CRR-AR-10-005
 Act Price Caps


         APPENDIX B: MONETARY IMPACT CALCULATIONS TO COVER COSTS

Increasing Rates for Products Failing to Cover Costs

The potential revenue resulting from rate increases to cover costs for the seven
domestic market-dominant products is calculated as follows:

Table 3 illustrates how we calculated additional unit revenue required for the seven
products to break even and projected the mail volume for those products, taking into
account price elasticities and the impact a price increase would have on volume. On the
resulting volume we applied the revenue increase required to break even to arrive at the
monetary impact. For example, for Standard Mail Flats, the piece count (column B) was
multiplied by the elasticity based on percentage increase13 (column C) and the result
was subtracted from the piece count (column B) to get the projected volume estimate
(column D). The revised volume estimate was multiplied by the difference in revenue
needed to cover cost (column A) to get the possible unrecoverable revenue loss
(column E). The unrecoverable revenue loss in 2010 due to not raising rates to cover
costs is approximately $1.5 billion.

                          Table 3. Revenue Calculations to Cover Costs
                     Difference in                                                                   Possible
                       Revenue                           Elasticity Based        Projected        Unrecoverable
                                                                                                               14
     Mail Classes     Needed to    Pieces                 on Percentage           Volume          Revenue Loss
     and Products    Cover Cost (thousands)                  Increase          (thousands)          (millions)
                           A         B                           C                   D                  E
Standard Mail:
  Flats                       $0.080      7,793,511                 0.0964         7,042,371               $ 563.39
  Not Flat-
  Machinables
  and Parcels                  0.306        679,041                 0.0673           633,357                   193.81
Periodicals:
  In County                    0.017        859,268                 0.0334           830,595                    14.12
  Outside County               0.091      7,094,447                 0.0274         6,900,060                   627.91
Package
Services:
  Single-Piece
  Parcel Post                  0.769          80,716                0.0174            79,312                    60.99
  Bound Printed
  Matter Parcels               0.032        270,623                 0.0155           266,416                      8.53
  Media and
  Library Mail                 0.535        140,139                 0.1704          116,264                    62.20
Totals                                                                           15,868,374                $1,530.94




13
   Elasticity based on percentage increase was calculated by multiplying the elasticities by the percentage increase in
rates. The elasticities were obtained from the Postal Service Volume Forecasting group.
14
   Calculated values in tables may include rounding differences.




                                                          12
Impact of Postal Accountability and Enhancement                                      CRR-AR-10-005
 Act Price Caps


           APPENDIX C: CALCULATIONS FOR UNUSED RATE AUTHORITY

Increasing Rates to Unused Banked Authority

Potential revenue resulting from using unused banked rate authority to increase rates
for the seven domestic market-dominant products not covering costs is calculated as
follows:

Table 4 illustrates how we calculated the revenue possible for the seven products if
unused rate authority is applied and projected the mail volume for those products taking
into account the price elasticities and the impact the price increase would have on
volume. On the resulting volume we applied the revenue increase from unused rate
authority to arrive at the monetary impact. For example, for Standard Mail Flats, the
piece count (column B) was multiplied by the elasticity based on percentage increase
(column C) and the result was subtracted from the piece count (column B) to get the
projected volume estimate (column D). The revised volume estimate was multiplied by
the revenue increase based on the banked CPI-U (column A) to get the possible
unrecoverable revenue loss (column E). The 2010 unrecoverable revenue loss for not
raising rates by applying unused rate authority is approximately $1.75 million.

               Table 4. Revenue Calculations for Unused Rate Authority

                    Revenue                             Elasticity                      Possible
                    Increase                            Based on        Projected    Unrecoverable
 Mail Classes and   Based on      Pieces               Percentage        Volume      Revenue Loss
     Products     Banked CPI-U (thousands)              Increase      (thousands)     (thousands)
                            A               B               C             D                E
Standard Mail:
  Standard Mail
  Flats                   $   0.00015    7,793,511          0.0001      7,792,997              $1,160 
  Not Flat-
  Machinables and
  Parcels                     0.00038     679,041           0.0001        678,989                256 
Periodicals:
  In County                   0.00001      859,268          0.0000        859,267                  7 
  Outside County              0.00002    7,094,447          0.0000      7,094,435                145 
Package Services:
  Single-Piece
  Parcel Post                 0.00108       80,716          0.0002         80,699                  87 
  Bound Printed
  Matter Parcels              0.00017     270,623           0.0001        270,593                  45 
  Media and Library
  Mail                        0.00035     140,139           0.0003        140,094                  50 
Totals                                                                 16,917,074              $1,750 




                                                  13
Impact of Postal Accountability and Enhancement                                                   CRR-AR-10-005
 Act Price Caps



             APPENDIX D: MONETARY IMPACT CALCULATIONS APPLYING
             PRICE CAP TO MARKET-DOMINANT PRODUCTS AS A WHOLE

The Postal Service could gain additional flexibility in covering costs and generating
revenue if price caps are applied to a larger base rather than at the class level. Table 5
illustrates the results if the increase in inflation of 3.8 percent in FY 2008 was applied to
the market-dominant category as a whole in FY 2009 price increase. While multiple
options are available to apply price increases to product prices, the table shows an
across the board increase of 3.1 percent for all market-dominant products.15 The
3.1 percent reflects a weighted average rate taking into account the rate change dates
within the fiscal year.

We calculated the new revenue per piece for all market-dominant products by applying
a 3.1 percent rate increase to the FY 2008 revenue per piece. The revenue derived
from the increase from the price cap was multiplied by FY 2009 volumes for all market-
dominant products. This provided the projected revenue had the 3.1 percent rate
increase been applied to all market-dominant products, which was then subtracted from
the actual FY 2009 product revenue. The FY 2009 unrecoverable revenue loss for not
applying the cap at the market-dominant level is approximately $424 million.




15
   The list of products and services do not include international products and services whose rates are negotiated with
the Foreign Postal Administrations; and Negotiated Service Agreements mail which was not listed as separate
products in the FY 2008 CRA; and Special Services that offered subscriptions or rentals, as unit and per piece data is
neither applicable nor available.




                                                          14
Impact of Postal Accountability and Enhancement                                              CRR-AR-10-005
 Act Price Caps


  Table 5. Revenue Calculations All Market-dominant Products with FY 2009 Cap

                                      Elasticity                                      Actual FY    Difference
                     Difference in    Based on       Projected       Projected          2009        Revenue
Mail Classes and     Actual Rate     Percentage       Volume         Revenue          Revenue         Loss
Products               increase       Increase     (thousands)       (millions)       (Millions)   (millions)
First Class
Single-Piece
Letters                  -0.01481         -0.003    30,101,817       $13,305.00       13,298.98    $     6.03
Single-Piece
Cards                     -0.0148         -0.006     1,626,261           455.35          454.53           0.82
Presort Letters            0.0006          0.000    44,796,956        15,589.34       15,615.86        (26.52)
Presort Cards              0.0006          0.001     3,123,562           662.20          666.22         (4.03)
Flats                     -0.0075         -0.001     2,868,593         3,551.32        3,539.89          11.43
Parcels                    0.0057          0.001       580,192         1,107.59        1,113.76         (6.17)
Standard Mail
High Density and
Saturation Letters         0.0189          0.013     5,020,022            677.70        681.95          (4.24)
High Density and
Saturation Flats
and Parcels                0.0090          0.006    12,280,902           2,014.07      1,971.82         42.25
Carrier Route             -0.0118         -0.008     9,935,635           2,315.00      2,271.91         43.09
Letters                   -0.0069         -0.003    46,340,451           8,851.03      8,709.49        141.54
Flats                      0.0083          0.004     7,764,896           2,927.37      2,865.99         61.38
Not Flat-
Machinables and
Parcels                   -0.1329         -0.027        697,506           634.73        631.90           2.83
Periodicals
In County                 -0.0060         -0.001       860,327              95.50         90.62          4.88
Outside County            -0.0084         -0.001     7,099,310           2,058.80      1,932.09        126.71
Package
Services
Single-Piece
Parcel Post               -0.0132         -0.003         80,924           669.41        699.27         (29.86)
Bound Printed
Matter Flats               0.0514          0.033        230,816           215.35        206.45           8.91
Bound Printed
Matter Parcels             0.0063          0.004        269,511           387.29        362.61          24.68
Media and Library
Mail                      -0.0433         -0.039        145,622           396.82        397.40          (0.58)
Ancillary Service
Certified Mail            -0.0057         -0.001        266,811           734.53        729.81           4.72
Collect on
Delivery                  -0.0263         -0.044          1,059             7.70          7.56            0.13
Insurance                 -0.0068         -0.008         44,105           127.46        129.07          (1.60)
Registered Mail           -0.0556         -0.012          3,220            48.92         49.91          (0.99)
Special Services
Money Orders              -0.0080         -0.005        135,651      $    209.58        191.10        18.48
Total                                                                                              $ 423.88




                                                   15
Impact of Postal Accountability and Enhancement           CRR-AR-10-005
 Act Price Caps


                        APPENDIX E: MANAGEMENT COMMENTS




                                                  16
Impact of Postal Accountability and Enhancement        CRR-AR-10-005
 Act Price Caps




                                                  17
Impact of Postal Accountability and Enhancement        CRR-AR-10-005
 Act Price Caps




                                                  18
Impact of Postal Accountability and Enhancement        CRR-AR-10-005
 Act Price Caps




                                                  19
Impact of Postal Accountability and Enhancement        CRR-AR-10-005
 Act Price Caps




                                                  20
